William D. Edwards
Partner
DIRECT
DIRECT FAX
EMAIL

216.583.7150
216.583.7151
wdedwards@ulmer.com

August 19, 2021
VIA ELECTRONIC FILING
The Honorable Scott Harris
Clerk, Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

No. 21-135, Melanie Pelcha, Petitioner v. Watch Hill Bank
Unopposed Motion to Extend Time to Respond to Petition for Writ of Certiorari

Dear Mr. Harris:
The undersigned represents Respondent Watch Hill Bank (“Respondent”) in the abovereferenced case. Petitioner Melanie Pelcha (“Petitioner”) filed a Petition for Writ of Certiorari
(“Petition”) on July 28, 2021. The Petition was docketed on August 2, 2021. Respondent’s
deadline to file a response to the Petition is September 1, 2021.
Pursuant to Supreme Court Rules 15.3 and 30.4, Respondent respectfully moves for a 30-day
extension of time, up to and including October 1, 2021, within which to respond to the Petition.
The extension of time is necessary due to the press of business and other matters, including
undersigned counsel’s prior commitments in earlier-filed cases, unrelated litigation deadlines,
and necessary preparation for an upcoming jury trial.

CLEVELAND
COLUMBUS

Petitioner does not oppose this request for an extension of time to respond to the Petition. This
is the first such request for an extension made by Respondent. This request is being made in
good faith and is not interposed for the purpose of delay. No undue prejudice or delay will
result from the granting of this unopposed motion.

CINCINNATI
CHICAGO

For the foregoing reasons, Respondent respectfully requests that the deadline for responding to
the Petition be extended from September 1, 2021 to October 1, 2021.

NEW YORK
WASHINGTON DC

Sincerely yours,

BOCA RATON

ULMER.COM

William D. Edwards
Cc: See attached Certificate of Service

1660 West 2nd Street
Suite 1100
Cleveland, OH 44113-1406

FIRM

216.583.7000

FAX

216.583.7001

No. 21-135
IN THE SUPREME COURT OF THE UNITED STATES
MELANIE PELCHA,
Petitioner,
v.
WATCH HILL BANK,
Respondent.

Certificate of Service
I hereby certify that on August 19, 2021, I caused the foregoing UNOPPOSED MOTION TO
EXTEND TIME TO RESPOND TO PETITION FOR WRIT OF CERTIORARI to be served upon
all individuals required to be served in this proceeding, at the addresses listed below. Service was
made via electronic mail and first-class mail.
Service List:
Donald B. Hordes
RITTER & RANDOLPH
One East Fourth Street
Cincinnati, OH 45202
(513) 381-5700
dhordes@ritter-randolph.com
Counsel for Petitioner Melanie Pelcha

/s/ William D. Edwards
Attorney for Respondent Watch Hill
Bank

